No. 21-31

 

IN THE

Supreme Court of the United States

Fast Auto Loans, INC.,

Petitioner,
Vv.

JOE MALDONADO, ALFREDO MENDEZ,
J. PETER TUMA, JONABETTE MICHELLE TUMA,
ROBERT MATEOS SALMERON,

Respondent.

On Petition for a Writ of Certiorari to the
Court of Appeal of California,
Fourth District

SUPPLEMENTAL BRIEF OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
628 words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 16, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
